Supreme court, U.S.
FILED

SEP 1 1 2019
OFFICE OF THE CLERK

SUPREME 'COURT OF THE 1JNITED STATES
Supreme Court Case No

19-316.
Salt Lake City Corporation

Larry,Drake Hansen

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
please,cliec,k.thpi appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents,. and I do not represent, all respondents. Please enter my
appearance as Counsel of Redord for the following:resPorident(s):-

0 I am a member of the Bar of the Supreme Court Of the United States:):
0 I am not presently a member of the Bar o ' this Court. Should a response be requested, the response
will be filed by a Bar ember.
Signature
Date.

September 10, 20

(Type or print) Name

C
Catherine L. Brabson
0 Mr. 0 Ms.

Firm

❑ Miss

Salt Lake City Attorney's Office

Address

451 S. State Street, Suite 505A

City & State
Phone

Mrs.

Salt Lake City, Utah

(801) 535-7788

Zip
Email

84114

Catherine.Brabson@slcgov.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Larry Hansen, Pro Se, 1581 Nicklaus, Sandy, UT 84092

RECEIVED
SEP 1 1 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

